DEPARTMENT OF HOMELAND SECURITY
A
      Office of Inspector General



        Maintenance, Rehabilitation, and
    Upgrading of Shore Facilities in Support of
      United States Coast Guard Missions




OIG-08-24                         February 2008
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                              February 14, 2008

                                                Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the effectiveness of the United States Coast Guard’s maintenance,
rehabilitation, and upgrading of shore facilities in support of its missions. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations, and a review
of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
has been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to
all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents/Abbreviations

Executive Summary ...............................................................................................................................1
Background ............................................................................................................................................2
Results of Audit .....................................................................................................................................4
   Shore AC&I Funding Is Below Industry Standard ..........................................................................4
   Overhaul of Prioritized Shore AC&I Projects Not Timely..............................................................5
   Inappropriate Use of Maintenance Funds ........................................................................................7
   Shore AC&I and Maintenance Backlogs Do Not Reflect Most Urgent Priorities ........................11
   Conclusions and Recommendations ..............................................................................................13
   Management Comments and OIG Analysis ..................................................................................14

Appendices
  Appendix A:               Purpose, Scope, and Methodology.........................................................................17
  Appendix B:               Management Comments to The Draft Report........................................................18
  Appendix C:               Coast Guard’s Prioritized Projects.........................................................................21
  Appendix D:               Sector Southeastern New England Planning Proposal Report Excerpt .................23
  Appendix E:               Station Juneau Problem Statement Excerpt ...........................................................24
  Appendix F:               Base Galveston Project Proposal Report Excerpt..................................................26
  Appendix G:               Fort Wadsworth Planning Proposal/Project Proposal Report Excerpt ..................28
  Appendix H:               Recapitalization of 186 Buildings Problem Statement Excerpt.............................30
  Appendix I:               Station Boothbay Harbor Problem Statement Excerpt ..........................................31
  Appendix J:               Station Fire Island Project Proposal Report Excerpt ............................................33
  Appendix K:               Station Hatteras Inlet Problem Statement Excerpt ................................................34
  Appendix L:               Major Contributors to The Report .........................................................................36
  Appendix M:               Report Distribution ................................................................................................37

Abbreviations
  AC&I                       Acquisition, Construction, and Improvements
  ANT                        Aids to Navigation Team
  Coast Guard                United States Coast Guard
  Deepwater                  Integrated Deepwater System Program
  DHS                        Department of Homeland Security
  DOT                        Department of Transportation
  FASAB                      Federal Accounting Standards Advisory Board
  FY                         Fiscal Year
  HQ                         Coast Guard Headquarters
  ISC                        Integrated Support Command
  MSST                       Maritime Safety and Security Team
  OIG                        Office of Inspector General
  OMB                        Office of Management and Budget
  PP&E                       Property, Plant, and Equipment
  PRV                        Plant Replacement Value
  WPB                        Patrol Boats
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                        This report presents the results of our audit of shore facilities that support the
                        missions of the United States Coast Guard. Our objective was to determine
                        the extent to which the United States Coast Guard is properly maintaining,
                        rehabilitating, and upgrading its shore facilities.

                        The United States Coast Guard has been working diligently to maintain its
                        more than 22,000 shore facilities. However, as each year passes, this task is
                        becoming increasingly challenging. More than 80% of its current acquisition,
                        construction, and improvements funding is directed to the Integrated
                        Deepwater System Program, leaving funding available for shore facilities well
                        below the industry and United States Coast Guard accepted standard of 2% of
                        plant replacement value. For fiscal years 2003 through 2006, the United
                        States Coast Guard funded shore acquisition, construction, and improvements
                        at approximately 0.3% of plant replacement value, resulting in a funding gap
                        of about $511 million. To compensate for the gap, the United States Coast
                        Guard improperly used maintenance funds to upgrade or expand its shore
                        facilities.

                        Although the United States Coast Guard funded maintenance at the minimum
                        recommended level, we identified instances where the United States Coast
                        Guard used maintenance funds to augment shore acquisition, construction,
                        and improvement activities. This resulted in the under funding of the
                        maintenance program. Using maintenance funds to support shore acquisition,
                        construction, and improvement activities does not comply with the
                        requirements set forth in Office of Management and Budget Circular No. A-
                        11 and Federal Accounting Standards Advisory Board Statement No. 6.
                        According to these pronouncements, Office of Management and Budget
                        Circular No. A-11 defines maintenance of facilities as routine repair, and,
                        similarly, Federal Accounting Standards Advisory Board Statement No. 6
                        defines maintenance as normal repairs, replacement of parts, and other
                        activities needed to preserve the asset so that it continues to provide
                        acceptable services and achieve its expected life. The gap in shore
                        acquisition, construction, and improvements funding and the inappropriate use
                        of maintenance funds could hasten the deterioration of the United States Coast



   Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 1
                          Guard’s critical shore facilities and ultimately affect its overall operational
                          capability.

                          We recommend that the Commandant, United States Coast Guard: (1) fund
                          shore acquisition, construction, and improvements and maintenance according
                          to the industry standard and United States Coast Guard policy; (2) spend
                          maintenance funds according to the definitions set forth in Office of
                          Management and Budget Circular No. A-11 and Federal Accounting
                          Standards Advisory Board Statement No. 6; (3) revise shore acquisition,
                          construction and improvement backlogs to include only prioritized projects;
                          (4) revise the maintenance backlog according to United States Coast Guard
                          policy; and (5) identify expenditures that may have been inappropriately
                          charged to the maintenance appropriation since October 1, 2002, and if
                          appropriate, charge those expenditures against the shore acquisition,
                          construction, and improvements appropriation.

                          The United States Coast Guard concurred with the findings and
                          recommendations in the report. Three of the recommendations will remain
                          open until more specific details and documentation are provided on actions
                          taken such that we can determine whether these actions adequately address the
                          substance of our findings and recommendations. The Chief of Staff’s
                          comments to our report are incorporated into the body of this report, as
                          appropriate, and are included in their entirety as Appendix B.

Background
                          The United States Coast Guard (Coast Guard) reported that it occupies more
                          than 22,000 shore facilities with a plant replacement value (PRV) of $7.4
                          billion. The Coast Guard also reported that the funds required for its
                          acquisition, construction, and improvements (AC&I) and maintenance
                          backlog projects supporting these shore facilities exceeded $3.5 billion in
                          fiscal year (FY) 2006.

                          Table 1 provides a breakdown of AC&I funding supporting Integrated
                          Deepwater System Program (Deepwater)1 and shore facilities for FYs 2000
                          through 2006. The remaining AC&I funding, not depicted in Table 1,
                          includes expenses to acquire, repair, renovate, or improve vessels, small boats
                          and related equipment, other equipment such as the Nationwide Automatic
                          Identification System and Rescue 21, personnel compensation and benefits
                          and related costs, and costs from carrying out activities in support of the Oil
                          Pollution Act of 1990.


1
  Deepwater is Coast Guard’s $24 billion/25 year program intended to replace or modernize the approximately 90 ships
and 200 aircraft used in Deepwater missions. Although the program’s contract was awarded in June 2002, funding for
the program began in FY 2000.



     Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                         Page 2
                         Table 1: Breakdown of AC&I Funding Levels for Deepwater and Shore Facilities
                                                     FYs 2000 – 2006
                                                      ($ in thousands)
                                                                        % Funded        Amount         % Funded
                                                        Amount              to         Funded to        to Shore
                                    Total AC&I         Funded to        Deepwater        Shore          Facilities
                          FY       Appropriation       Deepwater        (rounded)      Facilities      (rounded)
                         2000              $389,326           $44,200       11              $63,800        16

                         2001              $415,000           $42,300       10              $63,336        15

                         2002              $636,354          $320,190       50              $73,100        11

                         2003              $737,277          $474,893       64              $49,874        7

                         2004              $967,200          $668,200       69                    $0       0

                         2005              $982,200          $723,950       74                $5,000       1

                         2006            $1,141,800          $933,100       82              $31,700        3

                     The Coast Guard manages the AC&I and maintenance of its shore facilities
                     under two major categories:

                     •    AC&I – Funds major acquisition, construction, and improvements that
                          increase the capacity or longevity of an asset. AC&I funds are allocated
                          on a prioritized basis; and
                     •    Maintenance – Funds preventive maintenance, normal repairs, alterations,
                          and renewal of assets to achieve their full-expected life.

                     The Coast Guard updates and reprioritizes the projects in its shore AC&I
                     backlog for modernization or replacement semi-annually. This is intended to
                     ensure that the planning, development, and execution of shore construction
                     provides the maximum benefit from the Coast Guard’s limited shore AC&I
                     budget. The typical shore AC&I project requires 6-7 years to complete; this
                     includes (1) 3 years to plan, (2) 2 years to obtain funding and complete the
                     design, and (3) another 1-2 years to construct. The Coast Guard’s
                     Maintenance and Logistics Commands for the Atlantic and Pacific areas rank
                     shore AC&I projects in their backlogs, but Coast Guard Headquarters (HQ)
                     sets the final priorities.

                     Districts, Sectors, Stations, and Civil Engineering Units establish maintenance
                     backlogs. The Planned Obligations Priorities Boards and District-level
                     commands prioritize maintenance projects. The Coast Guard considers the
                     maintenance backlog as an indicator of the condition of the shore facilities.
                     The Coast Guard’s management objective is to manage the backlog, not
                     eliminate it. According to the Coast Guard’s Civil Engineering Manual, the



Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                    Page 3
                          maintenance backlog should represent all maintenance projects planned for
                          execution within 5 years following the current fiscal year.

Results of Audit
                 Shore AC&I Funding Is Below Industry Standard
                          The Coast Guard faces significant challenges to ensure its 22,000 shore
                          facilities are properly maintained, rehabilitated, and upgraded. For FYs 2003
                          through 2006, the Coast Guard funded shore AC&I at approximately 0.3% of
                          PRV. This funding level is well below the industry and Coast Guard accepted
                          standard of 2% of PRV. Funding at the level of 2% of PRV would have
                          provided approximately $511 million in additional funding to shore facilities
                          for the period FYs 2003 through 2006. Because of limited shore AC&I
                          funding, the Coast Guard used maintenance funds to complete shore AC&I
                          projects, which resulted in growing deferred maintenance.

                          The National Research Council, the agency that provides standards for federal
                          facilities, recommends that AC&I be funded at 2% of PRV annually and that
                          maintenance be funded at 2-4% of PRV annually.2 For FYs 2003 through
                          2006, the Coast Guard funded maintenance at approximately 2% of PRV, but
                          as evidenced in Table 2, during the same period, shore AC&I was funded at
                          well below 2% of PRV. The Coast Guard funded shore AC&I, with an
                          average PRV of $7.475 billion, at approximately 0.3% of PRV for FYs 2003
                          through 2006.

                            Table 2: Breakdown of 2 Percent of PRV, Coast Guard's Congressional Requested
                                      Amounts, Enacted Appropriation Amounts, and Funding Gap
                                                           FYs 2003 - 2006
                                                           ($ in thousands)
                                                             Coast Guard’s    Amount of
                                                             Congressional Enacted AC&I
                                                  2%           Request -   Appropriation to
                                   FY           of PRV        Shore AC&I    Shore Facilities         Funding Gap
                                2003              $154,000           $28,700              $49,874           $104,126
                                2004              $148,000                 $0                   $0          $148,000
                                2005              $148,000             $5,000              $5,000           $143,000
                                2006              $148,000           $39,700              $31,700           $116,300
                           Total                  $598,000           $73,400              $86,574           $511,426



2
 Stewardship of Federal Facilities, A Proactive Strategy for Managing the Nation’s Public Assets, 1998, National
Research Council.



     Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                         Page 4
                     In order to properly preserve and maintain a public building, both AC&I and
                     maintenance should be funded annually at proper levels. Although the Coast
                     Guard funded maintenance at approximately 2% of PRV, it has had to use
                     maintenance funds to execute shore AC&I projects. Therefore, the amount of
                     funds actually used on maintenance was below the level of 2% of PRV.

                     By not adequately funding shore AC&I for its shore facilities, the Coast
                     Guard may encounter a critical situation with the structural integrity of its
                     shore facilities, which, if left uncorrected, could compromise overall
                     operational capability.

            Overhaul of Prioritized Shore AC&I Projects Not Timely
                     The Coast Guard’s shore AC&I funding is not adequate to fund prioritized
                     projects resulting in a growing backlog of projects. As of August 2006, the
                     Coast Guard’s shore AC&I backlog totaled $2.6 billion for 479 projects. Of
                     these 479 projects, 80 projects totaling $491 million were projects prioritized
                     by the Coast Guard as having pressing needs for modernization or
                     replacement. In FY 2007, the Coast Guard planned to fund $22 million for
                     shore AC&I, including six prioritized projects. See Appendix C for the Coast
                     Guard’s list of 80 prioritized projects for FYs 2006 through 2021.

                     As illustrated in Table 3, the dollar amount of the shore AC&I backlog and
                     the prioritized shore AC&I projects have generally increased since FY 2003.

                                      Table 3: Shore AC&I Backlog, Prioritized AC&I, and
                                         Percentage of Shore AC&I Backlog Prioritized
                                                        ($ in thousands)
                                                                                     % of Shore AC&I
                                                                                          Backlog
                                                                                        Prioritized
                            FY          Shore AC&I Backlog        Prioritized AC&I       (rounded)
                           2003                       $819,761             $328,731          40
                           2004                     $1,908,030             $349,200          18
                           2005                     $1,805,063             $423,430          23
                           2006                     $2,594,676             $491,391          19


                     As a result of limited funding, there are several prioritized projects that have
                     been on the shore AC&I backlog for many years including:

                     •   In October 1999, the Coast Guard approved a shore AC&I project to raze
                         and replace the Aids to Navigation Team (ANT)/Patrol Boats (WPB)
                         building at Sector Southeastern New England, Woods Hole,
                         Massachusetts. The primary reason for this project is to include a


Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                    Page 5
                         Trailerable Aids to Navigation Boat bay with the new ANT/WPB
                         building. The lack of a Trailerable Aids to Navigations Boat bay has had
                         a significant negative effect on ANT mission performance. See Appendix
                         D for an excerpt of the project’s Planning Proposal describing the
                         functional deficiencies of the building. The August 2006 shore AC&I
                         backlog lists the ANT/WPB building project at an estimated cost of $6.9
                         million for FY 2009. Figure 1 is a March 2006 photograph of an interior
                         office in this building. The photograph demonstrates the deteriorating
                         conditions of the building.

                         This project is also an example of how HQ’s priorities of shore AC&I
                         projects change over time. In FY 2003, HQ ranked this project as priority
                         number four, in FY 2004 it ranked 13th, and in FY 2005 it was not ranked.
                         As of August 2006, HQ ranked this project as third for execution in FY
                         2009. Between September 1994 and April 2006, the Coast Guard has
                         awarded $187,000 in maintenance funds for short-term fixes to this
                         project.

                           Figure 1: Interior of ANT/WPB Building, Sector Southeastern New England




                         Source: DHS OIG


                     •   In December 1992, the Coast Guard approved a shore AC&I project to
                         replace the covered boat facility at Coast Guard Station Juneau, Alaska.
                         As of August 2006, this project’s cost was estimated at $2.9 million. The
                         primary reason for this project is to provide a covered mooring for Station
                         Juneau personnel. The lack of a covered mooring causes both personnel
                         safety and boat maintenance to suffer under adverse working conditions,
                         which may impact mission performance. See Appendix E for an excerpt
                         of the project’s Problem Statement describing the impact of the problem.

                     The Coast Guard reported that neglecting the timely overhaul of its
                     infrastructure could cause the infrastructure to degrade, which in turn could
                     hinder mission performance and compromise safety.


Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                    Page 6
            Inappropriate Use of Maintenance Funds
                     The Coast Guard is improperly using maintenance funds to augment and
                     compensate for underfunding shore AC&I project funding. Although the
                     Coast Guard is funding maintenance at the minimum recommended level,
                     using this funding to support AC&I activities results in an underfunded
                     maintenance program. The gap in shore acquisition, construction and
                     improvements funding and the inappropriate use of maintenance funds could
                     hasten the deterioration of the Coast Guard’s critical shore facilities and
                     ultimately affect its overall operational capability.

                     Furthermore, although Coast Guard manuals, as interpreted by the Coast
                     Guard, permit using maintenance funds for shore AC&I projects, this practice
                     is not consistent with guidance contained in Office of Management and
                     Budget (OMB) Circular No. A-11 and Federal Accounting Standards
                     Advisory Board (FASAB) Statement No. 6. OMB provides guidance on
                     preparing, submitting, and executing the budget, and FASAB establishes
                     generally accepted accounting principles for federal entities. OMB Circular
                     No. A-11 defines maintenance of facilities as routine repair, and, similarly,
                     FASAB Statement No. 6 defines maintenance as normal repairs, replacement
                     of parts, and other activities needed to preserve an asset so that it continues to
                     provide acceptable services and achieve its expected life. In OMB Circular
                     No. A-11, maintenance excludes amounts for construction and rehabilitation,
                     including new works and major additions, alterations, improvements to, and
                     replacements of existing works. In FASAB Statement No. 6, maintenance
                     excludes the acquisition of general Property, Plant, and Equipment (PP&E),
                     and activities aimed at expanding the capacity of an asset or otherwise
                     upgrading it to serve needs different from, or significantly greater than, those
                     originally intended. By using maintenance funds to support shore AC&I
                     funding deficits, the Coast Guard is not investing adequate funding in routine
                     repairs, which will potentially lead to higher maintenance costs or
                     rehabilitation needs in the future.

                     The Coast Guard has funded the maintenance program between $136 million
                     and $160 million for FYs 2003 through 2006. This represents approximately
                     2% of the PRV, according to the industry standard. The scope of our audit did
                     not include testing these expenditures. Therefore, we cannot estimate the
                     extent maintenance funds were spent for nonmaintenance-related projects.
                     However, in October 1997, a Department of Transportation (DOT) OIG
                     Management Advisory Report reported inappropriate use of maintenance
                     funds. For example, the DOT OIG found that the Coast Guard used
                     maintenance funds to add to a depot, expand building capacity, construct a
                     parking lot, and convert a building to a rescue swimmer school. The DOT



Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                    Page 7
                     OIG recommended that the Coast Guard take the necessary action to stop the
                     use of maintenance funds for projects that should be charged to the AC&I
                     appropriation, identify expenditures that were inappropriately charged to the
                     maintenance appropriation and charge them against the AC&I appropriation,
                     and notify the Secretary of Transportation and the Congress that funds were
                     used inappropriately and report statutory violations, if appropriate.

                     During our audit, we also found examples of inappropriate use of maintenance
                     funds. In April 1994, the Coast Guard approved a shore AC&I project to
                     construct a 13,500-square-foot multipurpose building at Coast Guard Base
                     Galveston. The primary reason for this project is to provide a building to
                     support various missions because Coast Guard Base Galveston facilities are
                     obsolete, inefficient, hazardous, and deteriorating, which may impact mission
                     performance. See Appendix F for an excerpt of the Project Proposal Report
                     summarizing the project. According to the Coast Guard’s August 2006 shore
                     AC&I backlog, Phase I of this project is scheduled to be completed in FY
                     2007 at an estimated cost of $5.2 million and Phase II is scheduled for FY
                     2008, also at an estimated cost of $5.2 million. However, due to the pressing
                     need for a multipurpose building to assist missions, per procurement
                     documentation the Coast Guard used $1.6 million in maintenance funds in FY
                     2003 to construct five modular buildings, totaling 9,220 square feet, as a
                     temporary solution to the problem. Figure 2 shows the five modular buildings
                     constructed by Nortex, a contractor. By splitting the original shore AC&I
                     project into five modular buildings, the Coast Guard, according to its
                     interpretation of its own manuals, was able to classify and fund the project as
                     maintenance even though the project represents the construction of new work
                     and acquisition of general PP&E.




Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                    Page 8
                                   Figure 2: Five Modular Buildings Coast Guard Base Galveston




                                                    1
                                                                           2

                                                    3                  4




                                                                                5




                         Source: Nortex’s website


                     Also, the Coast Guard is scheduled to remove or has removed certain projects
                     from its shore AC&I backlog, since it anticipates using $15.1 million in
                     maintenance funding to complete these projects. In practice, the Coast Guard
                     split AC&I projects into several maintenance projects or over several years.
                     For example:

                     •   In November 1999, the Coast Guard approved a Fort Wadsworth, New
                         York, shore AC&I project totaling $8 million, of which $5 million was to
                         install automatic fire suppression systems to the housing complex and $3
                         million was to correct various code compliance violations. In April 2006,
                         the Coast Guard listed the automatic fire suppression systems project on
                         its maintenance backlog as 33 separate projects totaling $8.7 million. See
                         Appendix G for an excerpt of the Planning Proposal/Project Proposal
                         Report summarizing the project.

                     Further, the Coast Guard funded the new construction of the Maritime Safety
                     and Security Team (MSST) Building on the campus of Integrated Support
                     Command (ISC) Boston at a total cost of $1.5 million with maintenance
                     funds. These costs included the design, MSST portion, ANT Group portion,
                     wharf repairs, and MSST garage extension. Although a small portion of the
                     building relates to the ANT Group, the construction of the MSST Building
                     represents an upgrade to serve needs different from those originally intended
                     because MSST was a new mission. The Coast Guard funded the construction
                     of this building over two fiscal years. Figure 3 illustrates partial construction
                     of the MSST Building as published in spring of 2004. Note the foundation



Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                        Page 9
                     footing for the garage extension. Figure 4 illustrates the MSST Building with
                     the garage extension, which was completed in the fall of 2004.

                                            Figure 3: MSST Building, ISC Boston




                         Source: Building Profit Magazine


                                Figure 4: MSST Building With Garage Extension, ISC Boston




                           Source: DHS OIG, spring of 2006


                     In addition, three other examples of Coast Guard plans to use maintenance
                     funds for shore AC&I projects include:

                     •     In November 2003, the new construction of a shop building at the Coast
                           Guard Academy was approved. It was listed on the AC&I backlog as a
                           $2.1 million project. This project also is on the maintenance backlog as
                           two separate projects totaling $2.2 million. See Appendix H for an
                           excerpt of the Problem Statement for the recapitalization of the 186
                           buildings.




Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                            Page 10
                          •    In November 2002, the rehabilitation of a boathouse at Station Boothbay
                               Harbor, Maine, was approved. It was listed on the AC&I backlog as a
                               $1.1 million project. This project also is listed on the maintenance
                               backlog as five separate projects totaling $1.1 million. See Appendix I for
                               an excerpt of the Problem Statement for this project.

                          • In February 2003, the rehabilitation of the waterfront at Station Fire
                               Island, New York, was approved. It was listed on the AC&I backlog at $1
                               million. In June 2006, the Coast Guard approved a maintenance backlog
                               project totaling $1.5 million to address the same deficiencies. See
                               Appendix J for an excerpt of the Project Proposal Report summarizing the
                               project.

                 Shore AC&I and Maintenance Backlogs Do Not Reflect Most Urgent
                 Priorities
                          Shore AC&I and maintenance backlogs do not reflect a realistic account of
                          construction and maintenance needs for the Coast Guard. This is because the
                          shore AC&I backlog included nonprioritized projects and the maintenance
                          backlog included projects with contract award dates in FY 2012 or later, or
                          had estimated award amounts exceeding $1.5 million.3 As a result, the Coast
                          Guard is overstating the AC&I backlog by $2.1 billion and the maintenance
                          backlog by $236 million.

                          A shore AC&I project goes through three phases between identification and
                          execution. The three phases are as follows:

                          •    Problem Statement - identifies the initial need for a project;

                          •    Planning Proposal – documents an operational or support need and
                               evaluates alternative operational solutions for the proposed project; and

                          •    Project Proposal Report - finalizes the project scope and sets the budget
                               for the project.

                          The typical shore AC&I project requires 6-7 years to complete. Yet, the
                          Coast Guard has shore AC&I projects that have not advanced beyond the
                          Problem Statement phase for 10 years or more, such as the replacement of the
                          covered boat facility at Coast Guard Station Juneau, Alaska, and the
                          expansion of unaccompanied personnel housing at Station Hatteras Inlet,

3
  The Coast Guard Civil Engineering Manual requires that the maintenance backlog reflect a list of projects planned for
execution within five years following the current fiscal year. Further, the Financial Resource Management Manual
requires maintenance projects not to exceed $1.5 million per project.



     Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                        Page 11
                     North Carolina. The primary reason for the Station Hatteras Inlet project is to
                     provide adequate unaccompanied housing to all eligible Coast Guard
                     personnel. Without this project, the Coast Guard’s ability to provide adequate
                     berthing, messing, and quality of life will be severely impaired. See
                     Appendix K for an excerpt of the Problem Statement concerning this project.

                     The Coast Guard’s shore AC&I backlog consisted of 479 projects valued at
                     $2.6 billion as of August 2006. Of these 479 projects, 399 projects (83%),
                     totaling $2.1 billion (81%), were nonprioritized projects. The remaining 80
                     projects (17%), totaling $491 million (19%), mainly projects in the Planning
                     Proposal and Project Proposal Report phase, were prioritized.

                     The Coast Guard’s inclusion of nonprioritized projects in its shore AC&I
                     backlog is misleading because these projects do not represent a realistic need
                     at the time of budget submission. According to the Coast Guard, including all
                     projects, both prioritized and nonprioritized, in the shore AC&I backlog is an
                     indicator of the Coast Guard’s true shore facilities need. However, this
                     approach creates confusion for two reasons: (1) the nonprioritized projects by
                     definition do not represent pressing needs; and (2) the inclusion of
                     nonprioritized projects could inadvertently mislead appropriators regarding
                     the size, scope, and operational implications associated with the shore AC&I
                     backlog. In our view, the Coast Guard should maintain a separate list of
                     nonprioritized projects for planning purposes only.

                     Districts, Sectors, Stations, and Civil Engineering Units establish a
                     maintenance backlog. According to the Coast Guard’s Civil Engineering
                     Manual, the maintenance backlog should represent a list of all maintenance
                     projects planned for execution within five years following the current fiscal
                     year. In addition, according to the Coast Guard’s Financial Resource
                     Management Manual, considering local construction costs, maintenance
                     projects should not exceed $1.5 million.

                     As of April 2006, the Coast Guard’s maintenance backlog totaled $961
                     million for 9,641 projects. However,

                     •   1,796 projects, totaling $132 million, represent backlog projects with
                         contract award dates of FY 2012 or later; and

                     •   38 projects, totaling $104 million, have estimated award amounts at or
                         greater than $1.5 million.

                     As a result, the Coast Guard should not include projects totaling $236 million
                     in its maintenance backlog.




Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                   Page 12
Conclusions and Recommendations
                        The Coast Guard’s ability to effectively maintain, rehabilitate, and upgrade its
                        more than 22,000 shore facilities is being challenged by limited funding.
                        Shore AC&I funding remains well below the industry standard of 2% of PRV.
                        As a result, the Coast Guard has significantly under funded shore AC&I for
                        FYs 2003 through 2006. This occurred because the Coast Guard’s funding
                        priority was Deepwater. To compensate for the funding gap, the Coast Guard
                        used maintenance funds for shore AC&I projects and new construction in
                        contradiction of FASAB Statement No. 6 and OMB Circular A-11. In
                        addition, we determined that the Coast Guard’s shore AC&I and maintenance
                        backlogs do not reflect the Coast Guard’s most urgent priorities.

                        Although the Coast Guard works diligently with its limited shore AC&I
                        funding to maintain its shore facilities, we are concerned that the gap in shore
                        AC&I funding and increases in Deepwater funding will hasten the
                        deterioration of critical shore facilities which, if left uncorrected, could
                        compromise the Coast Guard’s overall operational capability and the health
                        and welfare of its staff.

                        Recommendations
                        To improve the management of shore facilities, we recommend that the
                        Commandant, United States Coast Guard:

                        Recommendation #1:
                        Develop a plan to fund shore AC&I and maintenance according to industry
                        standard and Coast Guard policy. The plan should include a detailed
                        description of steps to ensure that maintenance funds are not used to fund
                        shore AC&I projects. The plan should include annual reporting requirements
                        and the identity of organizational entities responsible for the implementation
                        of the plan.

                        Recommendation #2:
                        Implement controls to ensure that expenditures of maintenance funds comply
                        with OMB Circular No. A-11 and FASAB Statement No. 6. At a minimum,
                        these controls should prevent maintenance funds from being used to upgrade
                        or expand the capacity of an asset. In addition, these controls should prevent
                        splitting AC&I projects into several maintenance projects or over several
                        years.




   Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                      Page 13
                       Recommendation #3:

                       Revise shore AC&I backlogs to include only prioritized projects to better
                       reflect a realistic account of the Coast Guard’s AC&I needs.

                       Recommendation #4:

                       Revise the maintenance backlog in accordance with the Coast Guard policy to
                       reflect maintenance projects for the next five years, which is a more realistic
                       account of the Coast Guard’s needs.

                       Recommendation #5:

                       Identify expenditures that may have been inappropriately charged to the
                       maintenance appropriation since October 1, 2002 and, if appropriate, charge
                       those expenditures against the AC&I appropriation. If warranted, the Coast
                       Guard should notify the Secretary and the Congress that funds were used
                       inappropriately and report statutory violations.

Management Comments and OIG Analysis
                       The Coast Guard concurred with the findings and recommendations in the
                       report. Three of the recommendations will remain open until more specific
                       details and documentation are provided on actions taken such that we can
                       determine whether these actions adequately address the substance of our
                       findings and recommendations.

                       Management Comments to Recommendation #1
                       The Coast Guard concurred with our recommendation and stated that it has
                       developed a five-year Capital Investment Plan whose funding requirements
                       are reflected in the Coast Guard’s FY 2009 OMB Budget Submission, and
                       designated shore infrastructure recapitalization as a strategic imperative of the
                       Coast Guard’s FY 2010 budget.

                       OIG Analysis
                       We agree with the actions the Coast Guard has taken to address the intent of
                       our recommendation. However, the recommendation will remain open until
                       the Coast Guard provides us with documentation that specifically details
                       actions taken to ensure that maintenance funds are not used to fund shore
                       AC&I projects. The documentation should include annual reporting
                       requirements and the identity of organizational entities responsible for the
                       implementation.




  Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                     Page 14
                     Management Comments to Recommendation #2
                     The Coast Guard concurred with our recommendation and stated that it is
                     further reviewing its financial policy to ensure that it matches the authority
                     that the Coast Guard has in statute. In addition, the Coast Guard has requested
                     statutory authority similar to that provided to the Department of Defense.

                     OIG Analysis
                     We agree with the actions the Coast Guard has taken to address the intent of
                     our recommendation. However, the recommendation will remain open until
                     the Coast Guard provides us with documentation that specifically details
                     actions implemented to ensure that expenditures of maintenance funds comply
                     with OMB Circular No. A-11 capacity of an asset. In addition, these controls
                     should prevent splitting several AC&I projects into several maintenance
                     projects, or over several years.

                     Management Comments to Recommendation #3
                     The Coast Guard concurred with our recommendation and stated that it
                     revised its Shore Facilities Requirement List in FY 2007 by expanding the
                     requirements for project documentation and funding. The Coast Guard
                     implemented this action in order to better identify those projects to include in
                     its prioritized five-year shore AC&I Capital Investment Plan.

                     OIG Analysis
                     The Coast Guard has been responsive to our recommendation and has revised
                     its shore AC&I backlogs to include only prioritized projects. We consider the
                     recommendation closed.

                     Management Comments to Recommendation #4
                     The Coast Guard concurred with our recommendation and stated that the
                     maintenance backlog is being prioritized within the five-year funding levels
                     displayed in the Future Years Homeland Security Program.

                     OIG Analysis
                     The Coast Guard has been responsive to our recommendation and has revised
                     its maintenance backlog to reflect maintenance projects for the next five years.
                     We consider the recommendation closed.

                     Management Comments to Recommendation #5
                     The Coast Guard concurred with our recommendation and stated that it
                     understands the severity and implications of potential violations of the Anti-
                     Deficiency Act and has taken steps to ensure project funding decisions are
                     aligned with policies and statute-based authorities.
                     OIG Analysis




Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                   Page 15
                     We agree with the actions the Coast Guard has taken to address the intent of
                     our recommendation. However, the recommendation will remain open until
                     the Coast Guard provides us with documentation of those expenditures it has
                     identified as inappropriately charged to the maintenance appropriation since
                     October 1, 2002. The documentation should indicate the Coast Guard charged
                     those expenditures against the AC&I appropriation when appropriate, and the
                     Coast Guard notified the Secretary and the Congress that funds were used
                     inappropriately and report statutory violations when warranted.




Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                   Page 16
Appendix A
Purpose, Scope, and Methodology


                         Our objective was to determine the extent to which the Coast Guard is
                         properly maintaining, rehabilitating, and upgrading shore facilities in support
                         of its missions.

                         To achieve our audit objective, we reviewed Coast Guard documentation and
                         manuals related to civil engineering, including the Civil Engineering Manual,
                         Financial Resource Management Manual, and Shore Facilities Standards
                         Manual. We reviewed prior DHS OIG, Government Accountability Office,
                         and Department of Transportation OIG audit reports. We also reviewed the
                         Coast Guard’s 2004 strategic assessments. In addition, we analyzed
                         emergency maintenance requests for the period October 2004 through January
                         2006.

                         During the period January 2006 through September 2006, we interviewed
                         civil engineering officials at Coast Guard Headquarters in Washington, D.C.,
                         at the Civil Engineering Unit in Providence, Rhode Island, and at the
                         Maintenance and Logistics Command and Facilities Design and Construction
                         Center in Norfolk, Virginia. We judgmentally selected Coast Guard shore
                         facilities to visit because of the proximity to the OIG field office in Boston.
                         Specifically, we conducted site visits to the ISC in Boston, Massachusetts, and
                         Sector Southeastern New England in Woods Hole, Massachusetts, on
                         February 28, 2006 and March 16, 2006, respectively. At ISC Boston, we
                         judgmentally selected and reviewed four projects from the maintenance
                         backlog, and at Sector Southeastern New England, we reviewed one project
                         on the shore AC&I backlog and judgmentally selected and reviewed six
                         projects on the maintenance backlog.

                         We analyzed shore AC&I backlogs from FY 2003 through August 16, 2006.
                         Similarly, we analyzed the maintenance backlog as of February 27, 2006, for
                         the Coast Guard’s First District (New England region) and expanded our audit
                         to all districts as of April 13, 2006. We relied on the Coast Guard’s computer
                         processed data that contained information on the shore AC&I and
                         maintenance backlogs. We conducted limited testing of this data to source
                         documentation. Based on these tests, we concluded that the data are
                         sufficiently reliable to be used in meeting audit objectives.

                         We conducted our audit between January 2006 and May 2007 under the
                         authority of the Inspector General Act of 1978, as amended, and according to
                         generally accepted government auditing standards.

                         We would like to extend our appreciation to the Coast Guard for the
                         cooperation and courtesies extended to our staff during this audit.




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 17
Appendix B
Management Comments to The Draft Report




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 18
Appendix B
Management Comments to The Draft Report




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 19
Appendix B
Management Comments to The Draft Report




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 20
Appendix C
Coast Guard’s Prioritized Projects




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 21
Appendix C
Coast Guard’s Prioritized Projects




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 22
Appendix D
Sector Southeastern New England Planning Proposal Report Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 23
Appendix E
Station Juneau Problem Statement Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 24
Appendix E
Station Juneau Problem Statement Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 25
Appendix F
Base Galveston Project Proposal Report Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 26
Appendix F
Base Galveston Project Proposal Report Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 27
Appendix G
Fort Wadsworth Planning Proposal/Project Proposal Report Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 28
Appendix G
Fort Wadsworth Planning Proposal/Project Proposal Report Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 29
Appendix H
Recapitalization of 186 Buildings Problem Statement Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 30
Appendix I
Station Boothbay Harbor Problem Statement Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 31
Appendix I
Station Boothbay Harbor Problem Statement Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 32
Appendix J
Station Fire Island Project Proposal Report Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 33
Appendix K
Station Hatteras Inlet Problem Statement Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 34
Appendix K
Station Hatteras Inlet Problem Statement Excerpt




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 35
Appendix L
Major Contributors to The Report


                         Washington, D.C. Office

                         Richard T. Johnson, Director
                         Coast Guard and Maritime Security Operations Division

                         Boston, MA Field Office

                         Maureen Duddy, Supervisory Auditor
                         Edward Jeye, Auditor-in-Charge
                         David DeHaven, Auditor
                         Brian Lynch, Auditor
                         Colin Sullivan, Auditor




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 36
Appendix M
Report Distribution


                    Department of Homeland Security

                    Secretary
                    Deputy Secretary
                    Chief of Staff
                    Deputy Chief of Staff
                    General Counsel
                    Executive Secretary
                    Director, GAO/OIG Audit Liaison
                    Assistant Secretary for Policy
                    Assistant Secretary for Public Affairs
                    Assistant Secretary for Legislative Affairs
                    Commandant, USCG
                    USCG Audit Liaison

                    Office of Management and Budget

                    Chief, Homeland Security Branch
                    DHS OIG Budget Examiner

                    Congress

                    Congressional Oversight and Appropriations Committees, as appropriate




    Maintenance, Rehabilitation, and Upgrading of Shore Facilities in Support of United States Coast Guard Missions

                                                       Page 37
Appendix M
Report Distribution




  Additional Information and Copies

  To obtain additional copies of this report, call the Office of Inspector General (OIG) at
  (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
  www.dhs.gov/oig.


  OIG Hotline

  To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
  or noncriminal misconduct relative to department programs or operations:

      •   Call our Hotline at 1-800-323-8603;
      •   Fax the complaint directly to us at (202) 254-4292;
      •   Email us at DHSOIGHOTLINE@dhs.gov; or
      •   Write to use at:
            DHS Office of Inspector General/MAIL STOP 2600, Attention:
            Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
            Washington, DC 20528,

  The OIG seeks to protect the identity of each writer and caller.
